<html>
<title> - THE FUTURE OF DEMOCRACY IN HONG KONG</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                  THE FUTURE OF DEMOCRACY IN HONG KONG

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 20, 2014

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 
 
 


            Available via the World Wide Web: http://www.cecc.gov
         
                               _____________
         
         
         
                              U.S. GOVERNMENT PUBLISHING OFFICE
    92-631 PDF                        WASHINGTON : 2015             
    _________________________________________________________________________________
    For sale by the Superintendent of Documents, U.S. Government Publishing Office,
   Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
	      Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

         

         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

Senate

                                     House

SHERROD BROWN, Ohio, Chairman        CHRIS SMITH, New Jersey, 
CARL LEVIN, Michigan                 Cochairman
DIANNE FEINSTEIN, California         FRANK WOLF, Virginia
JEFF MERKLEY, Oregon                 ROBERT PITTENGER, North Carolina
                                     MARK MEADOWS, North Carolina
                                     TIM WALZ, Minnesota
                                     MARCY KAPTUR, Ohio
                                     MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                    Lawrence T. Liu, Staff Director

                 Paul B. Protic, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Sherrod Brown, a U.S. Senator from 
  Ohio; Chairman, Congressional-Executive Commission on China....     1
Smith, Hon. Christopher, a U.S. Representative from New Jersey; 
  Cochairman, Congressional-Executive Commission on China........     2
Pittenger, Hon. Robert, a U.S. Representative from North Carolina     3
Patten, Rt. Hon. Lord Christopher of Barnes CH, 28th Governor of 
  Hong Kong, 1992-1997; Chancellor, University of Oxford 
  (Appearing live via video teleconference)......................     4
Hui, Victoria Tin-bor, Ph.D., Associate Professor, Department of 
  Political Science; Faculty Fellow, Liu Institute for Asia and 
  Asian Studies, University of Notre Dame........................    14
Lagon, Ambassador Mark P., Ph.D., Global Politics and Security 
  Chair, Master of Science in Foreign Service Program, Georgetown 
  University; Adjunct Senior Fellow for Human Rights, Council on 
  Foreign Relations; incoming President, Freedom House...........    16
Bush, Richard C., III, Ph.D., Senior Fellow; Director, Center for 
  East Asia Policy Studies; Chen-Fu and Cecilia Yen Koo Chair in 
  Taiwan Studies, The Brookings Institution......................    18

                                APPENDIX
                          Prepared Statements

Hui, Victoria Tin-bor............................................    28
Lagon, Mark P....................................................    30
Bush, Richard C..................................................    34

Brown, Hon. Sherrod..............................................    36
Smith, Hon. Christopher..........................................    37


                  THE FUTURE OF DEMOCRACY IN HONG KONG

                              ----------                              


                      THURSDAY, NOVEMBER 20, 2014

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3:46 p.m., 
in Room G-50, Dirksen Senate Office Building, Hon. Sherrod 
Brown, Chairman, presiding.
    Also Present: Representatives Christopher Smith, Cochairman 
and Robert Pittenger and Senator Ben Cardin.

        OPENING STATEMENT OF HON. SHERROD BROWN, A U.S. 
SENATOR FROM OHIO; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Chairman Brown. The commission will come to order. I thank 
the second panel for being here and thanks for your patience to 
start a moment late. We had votes on the Senate floor and thank 
you for your willingness to wait for the first 45 more minutes 
or so for Lord Patten to do his remarks and take questions.
    So thank you for your cooperation and always thanks to 
Congressman Smith who has just been terrific working with on 
this Commission, whether he is Chair and I am Vice Chair or I 
am Chair and he is Vice Chair.
    We recently introduced legislation, Congressman Smith and 
I, to renew our commitment to freedom and democracy in Hong 
Kong. It is the first time that we figure, going back in the 
history of this Commission, that the two cochairs--always of 
separate Houses, opposite parties--have come forward and 
introduced legislation jointly. It speaks to the seriousness of 
this issue. It speaks to the consensus if not unanimity of both 
parties in both Houses of Congress in the importance of this, 
the rightness of this and the concern we all have about what 
has happened in Hong Kong.
    The People's Republic of China made a promise to the 
international community and to the people of Hong Kong that 
they would enjoy certain freedoms and could freely elect their 
leaders. It is those freedoms and autonomy that have ensured 
Hong Kong's--in many ways--miraculous stability and prosperity.
    But now the People's Republic of China is backtracking on 
these promises, not only that, some in China are seeking to 
distract from this issue by claiming that the United States is 
behind these protests. No straight right-thinking person really 
believes that, although that continues to be put out in some 
quarters, apparently, of the Chinese Government.
    The desire of the people of Hong Kong for freedom and for 
democracy is genuine. By holding this hearing, we urge China to 
respect their calls for democracy and to make good on its 
promise.
    Lord Patten will speak about that promise, will speak about 
the Basic Law, will speak about what he saw and what he heard 
and what he was promised almost two decades ago in the years 
leading up to 1997. Only by doing so, by holding this hearing, 
by China respecting their calls for democracy and making good 
on its promise, only by doing so can we have faith in China's 
commitment to international law.
    I look forward to the testimony of Lord Patten and our 
other three witnesses whom I will introduce at the appropriate 
time and I call on Congressman Smith.

STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. REPRESENTATIVE FROM 
 NEW JERSEY; COCHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION ON 
                             CHINA

    Representative Smith. Thank you very much, Chairman Brown. 
It is a real honor to work with you not only on the Commission 
but on our new Hong Kong legislation which has now been jointly 
introduced and we will stay with that until it becomes law. So 
thank you for that leadership and for that cooperation of 
working side-by-side.
    Democrat or Republican, we care about the people of Hong 
Kong. We care about human rights and this is another 
manifestation of that kind of bipartisanship.
    I would like to welcome our witnesses, as well, to this 
important gathering, this hearing to testify. I look out and 
see Mark Lagon who was our distinguished Ambassador working to 
combat human trafficking. He did a superb job in that position 
and has really made a difference and left a legacy and a 
lasting mark.
    I want to welcome our other witnesses too. They have just 
done tremendous things for so long. I also welcome Lord Patten.
    I remember visiting Lord Patten when I visited High Island 
during the Comprehensive Agreement with regard to boat people. 
He received my delegation and was extremely hospitable and as 
always knowledgeable.
    He also testified at a hearing on human rights that I held 
years ago on the Patten Commission Recommendations to help 
really to open up transparent policing in northern Ireland. 
Those Commission recommendations that he headed has had a 
lasting effect on good proper policing in the north of Ireland.
    This is the second public event that the Commission has 
held on the issue of Hong Kong. In April, the Commission heard 
from Martin Lee and Anson Chan, two leaders of Hong Kong's 
political world.
    Their work, as well as the work of Hong Kong's new 
generation of leaders has inspired this Commission and the U.S. 
Congress and freedom-loving people throughout the world. As has 
been mentioned already, Senator Brown and I have introduced 
bills in the House and Senate to update U.S. policy on Hong 
Kong. I've also agreed to start a Congressional Hong Kong 
caucus on the House side to demonstrate that Congress is 
concerned about Hong Kong's autonomy and its importance to U.S. 
national interests as well as global interests.
    As our witnesses today will attest, under the ``one 
country, two systems'' model, China guaranteed that Hong Kong 
would retain its separate political, legal, and economic 
systems for at least 50 years. Hong Kong's Constitution, the 
Basic Law, protects the rights of the people of Hong Kong to 
free speech, assembly, and the power to choose their own 
government, ultimately through universal suffrage.
    These promises were made to the people of Hong Kong and to 
the international community. Instead of keeping these promises, 
Beijing has decided to stack the deck against democracy and the 
rule of law, demanding that both judges and any future Chief 
Executive must ``love the country and love Hong Kong.''
    But, in August of this year, they ruled that the people of 
Hong Kong could not freely choose their next leader. Such 
demands will undermine an independent judiciary and make the 
2017 Chief Executive election look more like an Iranian 
election then one that is free and fair.
    The slow erosion of press freedoms and the rule of law, the 
setbacks to Hong Kong's democratic developments, and Beijing's 
less than subtle oversight of Hong Kong are the reasons the 
protests materialized and why they are ongoing. No matter what 
is said by President Xi Jinping or other Chinese officials, the 
``Umbrella Movement'' was a creation of Beijing's policies and 
its rough oversight.
    There is no ``Black Hand'' of foreign forces behind the 
protests, only requests for Beijing to live up to its promises 
and to ensure Hong Kong's unique system of autonomy within 
China. Hong Kong's unique system has ensured prosperity and 
spurred the type of creativity that only comes with the advance 
of fundamental freedoms. The freedoms of speech, assembly, 
association, and religion, and an independent judiciary, are 
the foundation on which Hong Kong's continued prosperity and 
stability are based.
    That is what the people of Hong Kong want. It is what they 
have conveyed to their leaders and to Beijing repeatedly for 
the last 17 years. Hong Kong's continued autonomy and the 
advance of its democracy is a deep concern of the U.S. Congress 
and freedom-loving people all over the world.
    I thank my friend for calling this important hearing. I 
yield back.
    Chairman Brown. Thank you Chairman Smith.
    Mr. Pittenger, welcome.


STATEMENT OF HON. ROBERT PITTENGER, A U.S. REPRESENTATIVE FROM 
                         NORTH CAROLINA

    Representative Pittenger. Thank you, Chairman Brown and 
thank you, Chairman Smith, particularly, for your leadership on 
behalf of freedom-loving people around the world and for the 
human rights and dignity of all people.
    And thank you to the witnesses who are appearing before us 
today to discuss such an important movement. The First 
Amendment of the U.S. Constitution affords American citizens 
the rights to freedom of speech, freedom of the press, and 
freedom to peacefully assemble. These rights are the foundation 
of our democracy. These rights are what have allowed America to 
continually grow and to advance. They are what continue to make 
America a beacon of freedom to the world.
    America, however, must continue to advocate for these 
rights to be afforded to every person around the world. I would 
say to you today that the independent courageous members of the 
``Umbrella Movement,'' they are seeking to bring a true 
democracy to Hong Kong. China now has the opportunity to ensure 
that the intent of ``one country, two systems'' is being upheld 
as promised.
    America must be clear in our support for Hong Kong and the 
ideals of liberty and democracy. I look forward to hearing from 
our witnesses about how the events in Hong Kong have brought us 
to our current state and what role America can play to help 
ensure that they do achieve a true democracy.
    Thank you, Mr. Chairman and I yield back.
    Chairman Brown. Thank you Congressman Pittenger and thank 
you for your involvement and regular input into this 
Commission.
    Representative Pittenger. It is my honor.
    Chairman Brown. Lord Patten, welcome. Thank you so much for 
joining us. The Honorable Lord Patten of Barnes served as the 
last British Governor of Hong Kong from 1992 to 1997. He 
oversaw the last years of British rule and Hong Kong's 
reversion to Chinese sovereignty.
    After his time as Governor, Lord Patten was European 
Commissioner for External Affairs for five years, Chairman of 
the BBC Trust for three more years. He currently serves as the 
Chancellor of Oxford University. He is testifying today via 
video link from London.
    Lord Patten, if you would begin your five-minute opening 
statement. Again, thank you for your patience. Thank you for 
giving us an hour today and your public service.
    Lord Patten?

 STATEMENT OF RT. HON. LORD PATTEN OF BARNES CH: 28TH GOVERNOR 
   OF HONG KONG, 1992-1997; CHANCELLOR UNIVERSITY OF OXFORD 
           (Appearing live via video teleconference)

    Lord Patten. First of all thank you very much indeed for 
inviting me and I will be as brief as possible because in the 
limited time we have, I would like to give you the maximum 
opportunity to ask questions and to invigilate, I hope, my 
responses.
    I do at the outset want to pick up a point that you've made 
already and then to add a little to it. You mentioned that 
there is a constant barrage of criticism from Beijing and 
indeed from some in Hong Kong that this democratic movement, 
the pressure for and sustaining the rule of law, democracy 
pluralism in Hong Kong is all organized from outside. And it is 
suggested that any interest taken by people outside is an 
unfair interference in China's own business.
    I think there are three very obvious responses to that. 
First of all, the Joint Declaration which was the basis for the 
transfer of sovereignty from the United Kingdom to China, the 
Joint Declaration is a treaty between China and Britain. The 
main beneficiaries of the treaty are the people of Hong Kong, 
but there are obligations under the treaty.
    There were obligations which Britain had to China before 
1997 and since 1997 which China has to Britain. And it is 
absurd to argue that we shouldn't talk about the Joint 
Declaration. It is not a Chinese declaration, it is a Joint 
Declaration.
    Second, China should recognize that Hong Kong is a great 
international city. There are, I think, 1,200 American 
businesses there, just to take one example. There is a large 
American community and it is in America's and everyone's 
interest that Hong Kong should continue to be a bastion of 
enterprise and rule of law in Asia with all of the freedoms 
that we associate with a liberal and plural society.
    I think it is perfectly natural and indeed to be welcomed 
that consistently the Congress, Senate, House of 
Representatives have shown an interest in what is happening in 
Hong Kong. When I was governor there, the American Chamber of 
Commerce were extremely supportive as were the State Department 
when we tried to make the best of the arrangements for 
elections to ensure that they were as democratic as possible.
    Third, it is quite interesting that in the last couple of 
days the Russian Deputy Defense Minister in discussions with 
his Chinese opposite number has been suggesting that perhaps 
the Russians can help China deal with their problems in Hong 
Kong, that this is like what happened in the Ukraine. I haven't 
heard Chinese Foreign Ministry spokesmen or others in China 
saying it is disgraceful that the Russians should be 
interfering in the affairs of Hong Kong.
    It is a slur on the wonderfully principled young people in 
Hong Kong and others--not those who in the last few days, a 
very small minority, who have protested violently, but all of 
those others who have been involved in this movement.
    It is a slur on them to pretend that they are somehow 
puppets of outsiders. It is a disgrace to suggest that and I 
think they have behaved admirably.
    The other thing I want to say is that, what they have been 
doing is, of course, refusing to accept that they can have 
their future stolen. They have been trying to argue that one of 
the best ways of sustaining the rule of law and all of the 
freedoms that we would associate with a liberal society is by 
having the ability to elect their own leaders, to elect their 
own government.
    I think it is extremely sad that the government in Hong 
Kong hasn't shown any statesmanship in trying to move toward a 
dialogue with the students and find ways in which they can give 
the students a way of--at least at the present stage of their 
campaign--reaching a short-term agreement about how to take 
things forward. There were all sorts of things that could've 
been suggested since last July.
    I have written about several of them, both related to the 
next Legislative Council elections in 2016 and to the election 
of the Chief Executive in 2017. There are lots of things which 
would've been absolutely within the gift of the Hong Kong 
authorities to have done and they haven't done any of them.
    Finally, I am sure that the Chinese authorities understand 
that there are responsibilities which come with a growing 
economic and political power in the world. I think there is now 
a gulf between the economic authority of China--though, I know 
some people are concerned about what happens next to the 
Chinese economy--and the lack of, as it were, soft power in 
China and I think that is affected by the way it behaves over 
Hong Kong and there were other similar issues.
    So I think this is a big and defining issue for how China 
is going to behave in the 21st century. I have absolutely no 
doubt at all that Joshua Wong and the other students who have 
been supporting him with this exemplary example of how to 
demonstrate for principles--I think that Joshua Wong and his 
colleagues own the future and I don't think it is owned by 
those whose view apparently is that the problem about allowing 
people elections, is you don't know the results in advance and 
the problem about allowing people elections is that as the 
Chief Executive in Hong Kong suggested, if everybody can vote, 
you will have lots of people who have below median incomes who 
can vote and what on Earth will happen as he seems to suggest--
when poor people can vote as well. Well, I suppose that is 
socialism with Chinese characteristics, but it is not my idea 
of how to build a plural society.
    Chairman Brown. Thank you very much, Lord Patten, for your 
insight. We are joined today by Senator Cardin who is not a 
member of this Commission, but is perhaps the most learned and 
outspoken advocate for human rights in the entire U.S. Senate, 
so Senator Cardin, thank you for joining us.
    Let me start. Lord Patten has until 4 o'clock our time and 
we obviously want to take advantage of his time and to respect 
his time.
    Lord Patten, when you prepared, you and the British 
Government, the Hong Kong Government prepared for the handover 
in 1997, what impression were you given by Chinese officials 
about their willingness to allow Hong Kong to be democratic, 
and were the British confident that Hong Kong would be allowed 
to have democratic elections of their Chief Executive and of 
their Legislative Council?
    Lord Patten. While there are two particular documents 
which--and I don't want to sound too much like a lawyer, I am 
married to one, but I am not one. There are two particular 
documents that I should refer to.
    The first is the Joint Declaration which was the treaty 
between Britain and China lodged at the United Nations which 
determined the handover. The Joint Declaration talks about the 
freedoms of Hong Kong, about the rule of law. It talks about 
the legislature holding the executive to account. It talks 
about the leader of the executive being elected. But it doesn't 
specify electoral arrangements.
    Then after the Joint Declaration, there was the Chinese 
Basic Law which was the mini constitution for Hong Kong. It is 
the Basic Law which is supposed to implement the principles of 
the Joint Declaration--``one country, two systems''--and to 
spell out the actual electoral arrangements. To be honest, the 
electoral arrangements were, to some extent after 1997, a bit 
vague.
    They were quite explicit before 1997 and what I tried to do 
when I was Governor from 1992 to 1997 was to make the 
arrangements we had agreed with the Chinese as open and 
democratic as possible. I did not go beyond the terms of the 
Basic Law, but I increased the number of people able to vote by 
about 2.7 million.
    I think what I did was inevitably limited by the agreements 
that had already been made and I was surprised to be both 
lionized for being a great democratic champion and vilified for 
what I was doing. I think I was doing pretty much the minimum 
of what was required in order to ensure that the elections were 
as fair and reasonable as possible.
    I have said in the past, I have written in the past, that I 
don't think in the years before that we had done as much as we 
should've done to entrench democracy. That was of course 
partly, as the documents now suggest, the documents which have 
been opened, because the Chinese were very much against us 
moving to greater democracy in Hong Kong because they thought 
it might lead people in Hong Kong to think they were eventually 
going to be independent like, say Singapore, or other places 
where we had been the colonial power.
    So it is complete nonsense to suggest that China always 
wanted democracy in Hong Kong. It was very resistant to any 
form of democracy in Hong Kong.
    When we left in 1997, I thought two things. First of all, I 
was pretty sure that the Chinese would roll back the rather 
limited increase in the electorate that I had made, but I did 
think that the Chinese would keep their word under the Basic 
Law and that democracy would inevitably develop.
    Margaret Thatcher who was the Prime Minister who negotiated 
the Joint Declaration said in our Parliament, and the House 
that I am in now and where I have to go in order to speak and 
vote a little later--so I apologize for that--she said in 1992, 
in December, that she hoped that there would be a fully 
democratically elected legislature by 2007. Now that wasn't an 
explicit promise made by the Chinese, but we were certainly 
promised that we would be on the road to democracy.
    Perhaps I can read out one particular passage from the 
Basic Law, from Article 45 about the Chief Executive. First of 
all it is clear under the Basic Law that the arrangements for 
the election of the legislature are for the Government of Hong 
Kong--for the Government of Hong Kong to report to Beijing, but 
not to get the authority or agreement of Beijing for those 
arrangements. So there is plenty that the Government of Hong 
Kong could be doing on that front.
    As far as the Chief Executive is concerned, Article 45 of 
the Basic Law says this: ``The method for selecting the Chief 
Executive shall be specified in the light of the actual 
situation in the Hong Kong Special Administrative Region and in 
accordance with the principle of gradual and orderly progress. 
The ultimate aim is the selection of the Chief Executive by 
universal suffrage upon nomination by a broadly representative 
nominating committee in accordance with democratic 
procedures.''
    Now, the actual situation in the Hong Kong Special 
Administrative Region is one in which there are huge numbers of 
people arguing for a proper democratic election, a proper 
democratic procedure to choose the Chief Executive. The 
principle of gradual and orderly progress. This is 2014.
    It is 17 years since I sailed away from Hong Kong, plenty 
of time to run a gradual and orderly progress toward democracy. 
The ultimate aim is the selection of the Chief Executive by 
universal suffrage upon nomination by a broadly representative 
nominating committee. The nominating committee represents 7.5 
percent of the electorate.
    So what you have been given at the end of this whole 
process is the sort of election, the sort of democratic 
election which would be understood in Iran where the leadership 
can decide who you are allowed to vote for. I think that it is 
those proposals which have provoked the present protests, the 
present demonstrations, the ``Umbrella Movement'' and I am 
extremely sorry that the leadership in Beijing and the 
leadership in Hong Kong haven't entered into a proper dialogue 
with the students.
    I am very unhappy that they seem to believe that if they 
simply allow things to run on and on and on, sooner or later a 
few people on the fringes will behave in ways which the 
students themselves deplore and that has started to happen. But 
I really do think that you cannot solve this problem by simply 
putting it off.
    You can't put the police in the position where they have to 
make up for the lack of sensible politics. There are plenty of 
ways in which there could be accommodations with the students 
which would ensure that elections were free and fair and 
provided the sort of outcome which the International Covenant 
on Civil and Political Rights [ICCPR] which was also put into 
the Hong Kong Constitution guarantees.
    Chairman Brown. Thank you Lord Patten.
    Chairman Smith?
    Representative Smith. Thank you very much. Lord Patten, 
thank you for your testimony. Thank you for your leadership. 
You give us clear and insightful comments today.
    Let me just ask you if I could and I thank you for your 
words about the slur on the integrity and principles of Hong 
Kong's citizens to assert that the Chinese Government's 
propaganda machine, as it does, that they are being manipulated 
by outside forces. That cannot be said often enough and without 
enough exclamation points because unaccustomed as they are, the 
Chinese Government always slurs and libels those who speak the 
truth and here is another serious manifestation of that. So 
thank you for bringing attention to that.
    Let me ask you, under Hu Jintao and now under Xi Jinping, 
do you discern any difference in how they have approached Hong 
Kong or are the events now being driven in part by the calendar 
as 2017 approaches?
    With regard to the rights, are you finding that some human 
rights are more at risk and are being violated more 
aggressively by the leadership in Hong Kong as well as in 
Beijing? And is it getting worse by the day, week or month?
    And if you could just tell us how has the United Kingdom 
monitored China and Hong Kong's compliance with the joint 
declaration and since it was registered as a treaty with the 
United Nations, how has the UN monitored China and Hong Kong's 
compliance with that important agreement?
    Lord Patten. First of all, there is plenty of difference 
between Xi Jinping and Hu Jintao. I am not sure, with one 
exception, you can demonstrate it in what they have done about 
Hong Kong. Clearly Xi Jinping is a much more powerful leader 
than Hu Jintao. Deng Xiaoping, after the years of Mao, deemed 
it sensible to try to put in place after him a more consensual, 
a broader leadership. So with both Jiang Zemin and Hu Jintao, 
they had premiers and colleagues, and governed with those 
leaders. I think clearly Xi Jinping is a much more imperial 
leader.
    I think there are three reasons for that. First of all, I 
think the leadership was spooked by the whole Bo Xilai affair. 
Second, I think there was a feeling that there had been drift 
during the Hu Jintao period, whether that is fair or not I 
would not say.
    Third, I think Xi Jinping is clearly one hell of an 
operator and I think that given the chance, he has pushed 
others aside and assumed huge numbers of powers himself. Now, 
he clearly wants to reform the economy and particularly the 
balance between state-owned enterprises and the private sector.
    I guess that one consideration he has is that if he is 
going to move in what some would regard as a rather moderate 
direction on the economy, he has to be tough on the politics. 
If you look at what has happened in China in the last year or 
so, there has been a really tough clampdown, crackdown on 
humans rights lawyers, on dissidents, and on the blogosphere, 
and on Chinese Twitter and anybody who has got out of line has 
been hit for six.
    One example of that, I guess, is that those who have argued 
that senior leaders should declare their assets publicly which 
would be a very good way of meeting some of the President Xi 
Jinping's ambitions on dealing with corruption have been locked 
up. It is not the people who have those Rolex watches and tax 
havens overseas who have been, in every case, put in jail.
    It has been argued that there should be greater openness. 
So there has been a crackdown on all of those political 
manifestations and it may be that Hong Kong has suffered as a 
result. I think there is also a sense in the leadership--though 
this is stabbing in the dark--I think there's also a sense that 
the leadership having backed down a few years ago over the 
attempt to introduce a law of subversion in Hong Kong and the 
leadership having backed down when Joshua Wong and other 
students objected to changing the curriculum in order to 
introduce more ``Chinese Communist patriotism'' into it, that 
they wouldn't back down for a third time. So I think it may be 
caught up in that whole issue of politics in Beijing, but it is 
obviously very difficult to say.
    On the rule of law, there was a Chinese white paper which 
was produced earlier this year and it encouraged me, for the 
first time, to speak out in Hong Kong. I had written about Hong 
Kong, but on the whole, while I have gone back to Hong Kong and 
I've been really pleased to do so, I haven't spoken about Hong 
Kong with great regularity because I thought that was slightly 
unseemly.
    But I did speak out this year when a white paper was 
produced in Beijing which, to many people, seemed to be 
undermining the rule of law. It was a point made by a large 
number of barristers who demonstrated--I think 1,700 of them 
demonstrated--in front of the Court of Final Appeal, the Bar 
Association objected; the Law Society President had to resign 
because he seemed to have defended the Chinese position.
    And the former Chief Justice of Hong Kong spoke out 
suggesting that any implication that Hong Kong judges should be 
patriotic in the way that the Chinese Communist Party was 
suggesting would undermine their judicial independence. So that 
was an unsettling moment for the rule of law in Hong Kong.
    And of course we know that the Chinese leadership have some 
difficulty in understanding the rule of law. I think they 
believe in rule by law, but ruled by the law that the party 
puts in place rather than rule of law.
    Now you asked about the United Kingdom Government and I 
know that there is a tradition in American politics that you 
don't rubbish your own government when you are overseas and I 
would not want to be too critical of my own government in these 
hearings which I much welcome.
    Representative Smith. Lord Patten, if I could interrupt? It 
was just to ask you whether or not there is compliance----
    Lord Patten. If I could be very diplomatic, I would say 
that I think that the British Government has been restrained in 
its comments on what has been happening in Hong Kong. It 
produces a six-monthly report on the affairs in Hong Kong and 
that is a fairly neutral and--I've said myself--rather anodyne 
document.
    The Prime Minister has called for people to be given a 
genuine choice in Hong Kong and he has also spoken out in favor 
of the right of people to demonstrate under the rule of law in 
Hong Kong. That is all welcomed. But I hope that British 
Ministers will note what the American Government has said about 
Hong Kong, what President Obama said during the APEC [Asia-
Pacific Economic Cooperation] meetings recently and I think 
that should be extremely welcome.
    You will, I am sure, know or want to know that a body which 
is similar to your own in the United Kingdom Parliament, the 
Foreign Affairs Committee of the House of Commons, is at 
present undertaking hearings on Hong Kong. They have been 
talking about going to Hong Kong to take evidence themselves. 
And their interest in Hong Kong has been denounced, as you 
would expect, by the Chinese authorities who regarded it as a 
monstrous interference.
    But as I said earlier, we have a treaty with China and as I 
also said earlier, I haven't heard any Chinese authorities 
denouncing the Russian Defense Minister for what he said 
recently about helping in Hong Kong.
    Chairman Brown. Thank you Lord Patten.
    Congressman Pittenger?
    Representative Pittenger. Thank you, Mr. Chairman. Lord 
Patten, how would you counsel the ``Umbrella Movement'' today 
as they move forward and then also my second part is how would 
you counsel America and its role? I had one American 
businessman in Hong Kong tell me that our engagement, our 
involvement could be counterproductive. It could be seen as 
America is being the one who is behind this movement. I would 
really appreciate your good insight in these two questions.
    And I would also appreciate that response from the rest of 
our friends who have come on the panel today. Thank you very 
much.
    Lord Patten. Can I say a word, first of all, about the U.S. 
engagement? I say it in this context. I don't believe it is in 
any of our interests in the years ahead for China to do badly. 
You can't possibly want 1.3 billion people to do badly and it 
would be the worst threat to the global economy or to us 
politically for China to come a cropper, for China to do badly.
    So I hope China thrives and prospers and I think it is more 
likely to thrive and prosper sustainably if it enjoys political 
change and greater accountability and not just economic change. 
I think economic and political freedom are closely integrated.
    So to come to the specific point about U.S. engagement, 
there is a very quaint notion that you can never disagree with 
China, that whatever China does, it is the Middle Kingdom and 
you have to go along with it and that if you don't go along 
with it, you risk not being able to sell things to China, you 
risk doing damage to your economy.
    I think I am right in saying that China's exports to the 
United States went up by 1,600 percent in 15 years. So who 
needs whom?
    We live--it is clichee--in an interdependent world. I think 
it is ridiculous to suggest that any attempt to stand up for 
our values or for what we believe in means risking economic 
damage in our relationship with China.
    I think the reason why China buys products from America or 
Germany or Britain--not so many from Britain--is because it 
wants those things at the best price it can buy them for. I 
think it is, in a way, encouraging China to behave badly, to 
continually suggest that it is only if we ignore them behaving 
badly that we can continue with a satisfactory economic 
relationship. I really do think it has been a besetting sin of 
our relationship with China over the years.
    If I may enter into an American political debate for a 
moment, I don't think that the United States or anybody else 
reacting critically when China does things that we disagree 
with is tantamount to containing China or confronting China or 
launching an Asian Cold War with China. I think we would behave 
with China as we should behave with other countries and try to 
develop a relationship based on principle and on our national 
interests.
    Representative Pittenger. Lord Patten, If I could ask you--
--
    Lord Patten [continuing]. I think the relationship between 
China and the United States will be fundamental to the sort of 
century we live in and the peace and prosperity of this 
century. There is a sort of ``smart Alec'' point which some 
historians argue about suggesting that China and America 
relations risk dumping us in what they call the ``Thucydides 
trap.'' The suggestion is that inevitably a rising power always 
fetches up in a violent confrontation with the existing 
superpower as happened with Sparta and Athens in the 5th 
century B.C., with Germany in the 19th century, but I don't 
believe that is true at all.
    The advice I would give to students, and I would be 
hesitant in the area of doing so because I think they behaved 
with such extraordinary principle and good sense themselves and 
I am sad that their efforts in the last couple of days have 
been besmirched by the activities of the few rowdies, I think 
what I would say to them is this: You have won the argument and 
Hong Kong and you have won the argument because you've 
continued to stand on the moral high ground. You have continued 
doing that and you are now behaving in a way which recognizes 
the rule of law. So that however dignified, however important 
your cause, if there are court injunctions to move out of a 
particular area, they have to be obeyed. The students have been 
doing that.
    I think it would say to them the government is not helping 
you by behaving as it should in a statesmanlike way, but 
everybody recognizes that. Everybody recognizes that the 
government hasn't even done the bare minimum to provide you 
with some way in which there could be an accommodation.
    But it doesn't mean you have lost. This is a campaign that 
can be continued and will be continued in other ways. So I 
think I would for the time being, at least, drop down a few 
notches with this campaign but be prepared to continue it in 
other ways in the future.
    I have really been impressed by these kids standing up for 
the sort of things we take for granted--bravely, decently. If 
they were my kids I would be really proud of them.
    Chairman Brown. Thank you and in respect to your time, Lord 
Patten, I have one brief question. If you could be a bit 
prescriptive, how do the United States and the United Kingdom 
best work together to support Hong Kong's democracy in light of 
your answer if you would kind of continue that to Congressman 
Pittenger, what points of leverage do our two countries and 
others have to pressure China to fulfill these international 
commitments? If you would give us sort of the last five minutes 
and then in respect to your time, we will let you out by I 
believe 9 o'clock your time. Thank you.
    Lord Patten. [Inaudible.] Thank you very much. Indeed we 
have them here as well.
    Look, I think the very fact that you are holding these 
hearings, the very fact that you are talking about continuing 
without being interfering but continuing because of the 
principles which underpin your work to take a regular interest 
in what is happening in Hong Kong, I think that matters hugely. 
I think the fact that the Foreign Affairs Select Committee of 
the House of Commons here is conducting hearings like this 
despite assaults on its integrity by the Chinese Embassy here, 
by Chinese officials. I think that helps.
    I think having a focus on what is happening in Hong Kong is 
enormously important. There is a comparison I would like to 
draw, if I may, which you may think is a little far-fetched, 
but I think it really does apply.
    In the days of the Soviet Union, when the Soviet Union was 
locking up dissidents--Mr. Putin is still locking up 
dissidents. When they were locking up dissidents then, we used 
to say to dissidents sometimes when they were let out, ``Was it 
a help or was it a hindrance when Western countries raised your 
case? ''
    Some people would always say then ``Oh, it is always better 
if you talk about this in private. If you talk about it in 
public, if you make a fuss about it, the authorities will be 
much tougher.''
    The dissidents themselves would always say it made a 
difference when you raised their cases publicly, when you 
raised the ante for the authorities. I think it is exactly the 
same with dissidents in China. I think it is exactly the same 
with those who are arguing for democracy in Hong Kong.
    I am quite surprised, I have to say, that we don't raise 
the questions about dissidents as much as we used to or about 
religious freedom as much as we used to, when we talk to 
Chinese officials. I think we should do it more. But I 
certainly think that by talking about the importance of Hong 
Kong continuing to have its autonomy, continuing to have its 
freedoms and having those freedoms underpinned by democratic 
development, I think simply talking about that, I think shining 
a spotlight on that really does matter. I think it matters to 
China and I think if it didn't matter to China, the Chinese 
wouldn't make such a fuss when you hold hearings like this or 
when others hold hearings.
    So I don't think that there is some recourse we can have to 
a United Nations trigger, though that is always suggested by 
people. It may be possible, but I don't have quite as much 
confidence in the ability to take that route as some others 
have. I think actually talking about these issues, I think 
making a public case about them matters enormously and for me, 
one of the important things in the last few weeks has been 
reading the constant and very accurate reports in American 
newspapers about what is happening in Hong Kong.
    I think the television coverage by the BBC, as well, has 
been extremely good and I think all of those things matter 
hugely. They matter hugely to a country which is going to help 
shape our futures, China, but which doesn't have as much soft 
power around the world as you would think, which is why I guess 
its principal friends are apparently Venezuela, Zimbabwe, and 
North Korea.
    Chairman Brown. Lord Patten, thank you for sharing your 
evening. Good night. Enjoy the rest of your evening and we will 
enjoy the rest of our afternoon. Thank you.
    Lord Patten. Thank you very much. It has been a privilege.
    Chairman Brown. Thank you. Ours too.
    [Applause.]
    Chairman Brown. Let me introduce our panel and thank the 
three of you for joining us.
    Professor Victoria Tin-bor Hui is assistant professor and 
political science faculty fellow at the Liu Institute for Asia 
and Asian Studies at the University of Notre Dame. Professor 
Hui's research includes Chinese political history and theories 
of the state as well as ``contentious policies and resistance 
movements.'' Since the beginning of the demonstrations in Hong 
Kong, Professor Hui has maintained a blog to explain the 
protest movement in the context of constitutionalism and human 
rights.
    She grew up in Hong Kong. She recently visited Hong Kong to 
observe the protests. Welcome.
    Ambassador Mark Lagon is currently the chair for global 
politics and security at Georgetown's Master of Science in 
Foreign Service Program and adjunct senior fellow for human 
rights on the Council for Foreign Relations. From 2007 to 2009, 
he served as U.S. Ambassador-At-Large directing the Office to 
Monitor and Combat Trafficking in Persons.
    In January 2015, he will become president of the Freedom 
House. Welcome, Ambassador.
    Dr. Richard Bush--good to see you again--is a senior fellow 
at Brookings, director of the Center for East Asian Policy 
Study. He holds the Chen-Fu and Cecilia Yen Koo Chair in Taiwan 
Studies.
    Doctor Bush worked on the staff of the House Foreign 
Affairs Committee from 1983 to 1995. When I first met him, he 
was the chairman and managing director of the American 
Institute in Taiwan from 1997 to 2002. He is currently engaged 
in a study on the economic and political future of Hong Kong. 
Dr. Bush recently returned from Hong Kong where he, like Dr. 
Hui, observed the demonstrations.
    We will begin with your testimony Dr. Hui. If you would 
keep it to approximately five minutes, each of you. Welcome.

STATEMENT OF VICTORIA TIN-BOR HUI, PH.D.: ASSOCIATE PROFESSOR, 
DEPARTMENT OF POLITICAL SCIENCE; FACULTY FELLOW, LIU INSTITUTE 
      FOR ASIA AND ASIAN STUDIES, UNIVERSITY OF NOTRE DAME

    Ms. Hui. Thank you so much for having me here. I'm very 
proud of my Hong Kong origin, but today I shall speak as an 
academic expert. Because I don't claim to speak for protesters 
who have faced down police forces and thug violence, I only 
wish to highlight the significance of what they have been 
doing.
    The protesters' demands are best captured by this yellow 
banner that you can see everywhere in Hong Kong. ``We want 
genuine universal suffrage.''
    This refers to the right to nominate candidates as well as 
the right to vote for the next Chief Executive in 2017. The 
``Umbrella Movement'' has witnessed hundreds of thousands of 
protesters occupying busy streets in Hong Kong. At the same 
time, the media has shown images of counter-protesters roughing 
up nonviolent protesters.
    The division among Hong Kong people hinges on one question: 
Is it possible to preserve freedom without democracy? Hong Kong 
people, whether they are pro-occupy or anti-occupy, really 
desire freedom. They want a neutral civil service, an impartial 
police, an independent judiciary, and a free press. These core 
values are disappearing without democracy.
    Hong Kong has seen three Chief Executives since 1997. They 
were chosen by a narrowly based election committee beholden to 
Beijing and so they have undercut Hong Kong's core values.
    The first Chief Executive, C. H. Tung, under Beijing's 
prodding, introduced a draconian national security bill in 
2003. He was forced to shelve the bill and then resign after a 
half-million protesters took to the streets. Now, these days, 
pro-establishment figures are talking about re-tabling the bill 
so as to stifle dissent in the future.
    And then the second Chief Executive, Donald Tsang, 
introduced political appointments to top civil service 
positions without electoral accountability. This practice 
created cronyism and eroded the meritocratic civil service.
    The third and current Chief Executive, CY Leung, has 
stepped up the appointments of his loyal supporters to key 
government positions and also advisory committees. This has 
further corrupted the government. Under his watch, even the 
Independent Commission Against Corruption, ICAC, has become the 
target of a corruption investigation. And worse, CY Leung has 
been accused of receiving payouts of HK$50 million and then $37 
million from the Australian firm UGL without publicly reporting 
them.
    In addition, the police have come under attack for making 
arbitrary arrests and selectively enforcing the law. Media 
critics of the government have been demoted or fired with some 
journalists being physically attacked by thugs.
    So the rapid erosion of freedom has seriously undercut Hong 
Kong's promised autonomy. Protesters want genuine universal 
suffrage because the previous system of freedom without 
democracy is broken.
    Some Hong Kong people, many in my generation and older, 
still believe that Hong Kong can keep its freedom without 
democracy. But this view actually goes against world trends. It 
is not coincidental that Hong Kong has been the only case of 
freedom without democracy in the world and this unique system 
is fast disappearing.
    All around the world, freedom and democracy are either 
present together or absent together, strong together or weak 
together. It is simply impossible to preserve a meritocratic 
civil service, an impartial police, an independent judiciary, 
and a free press without democracy.
    Now the protesters are loud and clear about the goal of 
universal franchise. It is not easy to get there. The 
``Umbrella Movement'' is nearing the end of a second month. As 
the government has refused to have a meaningful dialogue with 
protesters, supporters are looking for alternative ways to 
sustain the movement beyond occupying busy streets.
    I think it may be less daunting, although by no means easy, 
to put pressure on business elites who are in the position to 
influence the government. All over the world, business elites 
are naturally pro-regime, but they may have second thoughts if 
protesters can impose cost on the continued collusion with the 
government.
    Protesters are circulating a list of businesses for a 
targeted boycott. The government plans to turn the 1,200-member 
election committee into a nominating committee for the chief 
executive in 2017. Leading members of this committee are Hong 
Kong's wealthiest tycoons who dominate most businesses and make 
money off every ordinary Hong Kong person.
    Hong Kong's rich and famous may be convinced that keeping 
the economy open to the world depends on guarding Hong Kong's 
freedom with democracy. Their long-term interests are better 
served in a Hong Kong that remains an international city rather 
than a Hong Kong that becomes just another Chinese city.
    Ultimately it is incumbent upon the Hong Kong Government to 
address protesters' demands. As bailiffs are clearing streets 
this week, the government may be tempted to think that the 
problem will simply go away. But the source of the problem is 
not the occupied movement. It is the government's erosion of 
freedom.
    Protesters will continue to struggle with other forms of 
civil disobedience. And now that the government has also 
trained a fearless generation, repression can only backfire and 
is not an option. The government has no alternative but to 
reopen negotiations with the students on future electoral 
arrangements.
    Hong Kong students say that history has chosen them. I 
think these students have shouldered this burden with immense 
courage. History has actually also chosen Hong Kong's powerful 
adults. It is their turn to make right choices. Thank you.
    Chairman Brown. Thank you Dr. Hui.
    Ambassador Lagon?

 STATEMENT OF AMBASSADOR MARK P. LAGON, PH.D.: GLOBAL POLITICS 
   AND SECURITY CHAIR, MASTER OF SCIENCE IN FOREIGN SERVICE 
  PROGRAM, GEORGETOWN, UNIVERSITY; ADJUNCT SENIOR FELLOW FOR 
HUMAN RIGHTS COUNCIL ON FOREIGN RELATIONS; INCOMING PRESIDENT, 
                         FREEDOM HOUSE

    Ambassador Lagon. Thank you very much Chairman Brown, 
Cochairman Smith, and distinguished members of the Commission. 
It is really an honor to appear here today.
    Optimists have hoped that because of Hong Kong's economic 
importance, China would honor its commitment to ``one country, 
two systems'' until 2047. Other optimists have hoped for 
Chinese leaders to usher in political reforms, but events in 
Hong Kong have provided evidence, unfortunately, to the 
contrary.
    Hong Kong police, just a few weeks ago, aggressively 
deployed tear gas and arrested protesters, violating the right 
of peaceable assembly long protected under Article 27 of the 
Basic Law. Many were arrested, including the iconic student 
leader Joshua Wong, who was detained for nearly 40 hours before 
use of a habeas corpus petition--a petition China does not 
permit in the rest of the mainland.
    What do events signal for human rights in Hong Kong? Will 
we see a continued push by China to assume ultimate control of 
Hong Kong? Freedoms in Hong Kong have declined since the 
handover. Press freedom--Freedom House has found--is at its 
lowest point in a decade. Beijing has attempted to introduce a 
propagandistic curriculum in Hong Kong schools, and the white 
paper released by Beijing stating that all city administrators 
and--notably--judges must love China are very troubling.
    The 1,200-member nominating committee vetting candidates 
for the next Chief Executive will be based on the current 
election committee comprised of special interests and weighted 
heavily toward pro-CCP [Chinese Communist Party] members.
    Second, despite any polls taken this week, there is strong 
popular support for democracy and human rights. A history of 
rights-based law has enabled Hong Kong to become an economic 
powerhouse and resulted in a population used to engaging in 
civil society discourse and participating in protests. Tens of 
thousands have taken part in the ``Umbrella Movement,'' and the 
Tiananmen Square Massacre's 25th anniversary demonstration drew 
200,000. Many of the pro-democracy movement's strongest voices 
are its youngest.
    A third sign from events in Hong Kong is just how pivotal a 
moment this is. Will Hong Kong's leaders address the current 
impasse in Hong Kong and will it retain its current unique 
place as a financial center or, as my colleague here says, just 
become another Chinese city wracked with corruption and 
censorship.
    More importantly, I would like to call attention to what 
events in Hong Kong signal for human rights more generally in 
China. Well, they signal continued repression in mainland 
China. If the CCP won't tolerate previously agreed-upon 
universal suffrage in Hong Kong, a region protected by the 
international covenant on civil and political rights, they 
surely will not undertake any meaningful democratic reforms on 
the mainland, and they are signaling to their population that 
there will be consequences for any similar protests in China.
    Escalating anxiety within the CCP, increased anti-foreign 
rhetoric and more stringent censorship on the mainland are 
emerging. Uniting citizens behind a common foreign enemy is a 
popular CCP smokescreen. Even as the United States and China 
are agreeing to reduce greenhouse gas emissions and cut 
tariffs, Chinese leaders are calling on other nations to 
challenge U.S. hegemony on the Internet, targeting U.S. 
companies for investigation, and praising anti-American 
writers.
    The CCP's anxiety isn't unfounded. The people of China 
hunger for democracy. That hunger still exists despite all the 
odds. Despite the CCP's strict control of media and the 
Internet and despite the fact that supporting or sharing 
information about protests has resulted in dozens of arrests on 
the mainland, there is an appetite for narratives to challenge 
one-party rule.
    Well, I imagine what you want to hear most from me is what 
steps the United States and the international community should 
take to support democracy and human rights in Hong Kong and 
China. First, the international community should publicly 
support the people of Hong Kong. A newly published report by 
Freedom House called ``Supporting Democracy Abroad'' found that 
in U.S. foreign policy toward China, ``Immediate economic and 
strategic interests almost always override support for 
democracy and human rights.'' That needs to change.
    Second, multilateral efforts are important. They should 
include a UN resolution urging Hong Kong authorities to fully 
implement the ICCPR, a visit to Hong Kong by the UN Special 
Rapporteur on the Rights to Freedom of Peaceful Assembly and of 
Association, resolutions by democratic nations like our own in 
support of Hong Kong citizens determining their own future, and 
efforts to identify points of economic leverage that would 
pressure Chinese authorities to respect Hong Kong's special 
status. I would be happy to talk about it a bit more.
    Congress can play a powerful role. I commend you for both 
S. 2922 and H.R. 5696, for taking steps such as renewing 
Section 301 of the U.S.-Hong Kong Policy Act to reinstate 
regular reports to Congress on the development of democratic 
institutions in Hong Kong, maintaining vigorous Radio Free Asia 
and Voice of America broadcasting in Cantonese, and tying any 
U.S. differential treatment of Hong Kong relative to China to 
Hong Kong's autonomy.
    When I was a House leadership staffer--as I close here--
during the 1997 handover, one might well have asked, ``Will 
Hong Kong infect that the rest of China with its freedoms or 
will China infect Hong Kong with its lack of them? '' We have a 
crucial moment here to see the likely future of freedom in Hong 
Kong and in China as a whole. The Chinese people are watching 
and it is no time for self-respecting democratic nations to be 
coy and muted.
    Thank you very much.
    Chairman Brown. Thank you, Ambassador.
    Dr. Bush, welcome.

RICHARD C. BUSH III, PH.D., SENIOR FELLOW; DIRECTOR, CENTER FOR 
EAST ASIA POLICY STUDIES; CHEN-FU AND CECILIA YEN KOO CHAIR IN 
           TAIWAN STUDIES, THE BROOKINGS INSTITUTION


    Mr. Bush. Thank you very much. Chairman Brown, Chairman 
Smith, thank you for giving me the privilege to testify today. 
Thank you for your leadership on this issue.
    I have four general themes. Theme number one, Hong Kong is 
important to the United States and to U.S.-China relations 
primarily because it is a test of the proposition that ethnic 
Chinese people are perfectly capable of democratic citizenship. 
I do believe they are and I believe that democratic success in 
Hong Kong strengthens the hand of political reformers in China 
over the long term.
    A democratic system in Hong Kong should be first, 
representative in that candidates for major elections offer 
voters a choice among major points of view. Second, accountable 
in that citizens, through elections, may confer legitimacy on 
leaders who do well and fire those who do not. And third, 
effective: the majority of Hong Kong people no doubt want a 
democratic system for its own stake, but they also expect that 
it would address the problems in their everyday lives.
    There are other American interests at play in Hong Kong. 
There are 1,200 American companies and about 60,000 American 
expatriates there. Many U.S. residents of Hong Kong origin live 
in the United States and make significant contributions to our 
society. Still it is Hong Kong's political future that is most 
important to U.S. interests.
    Theme number two, the U.S.-Hong Kong Policy Act remains a 
sound foundation for American policy. Its prescriptions remain 
valid and its emphasis on preserving Hong Kong's autonomy in 
areas critical to U.S. interests is more important today than 
it was in 1992.
    Regarding the bill you've introduced, Mr. Chairmen, I 
support the resumption of the State Department reports on Hong 
Kong. Actually, it would be a good and timely signal for the 
administration to resume the reports without waiting for 
legislation. But periodic congressional hearings on Hong Kong 
are also needed.
    I am agnostic on your proposal to require the President to 
certify that Hong Kong is sufficiently autonomous before any 
new laws, agreements, and arrangements are applied to it. That 
requirement is certainly implicit in the original law. Even 
with certification, substantive consultations between the two 
branches on this matter would be useful.
    Theme number three, what has happened in Hong Kong in the 
last three months was not foreordained. There was a compromise 
available earlier this year on how to elect Hong Kong's Chief 
Executive, one that would likely have assured a competitive 
election.
    The decision of the PRC's National People's Congress 
Standing Committee on August 31 ignored relevant and moderate 
Hong Kong proposals along these lines. Many in Hong Kong, 
therefore, concluded that the nominating committee would be a 
new way for Beijing to deny them a competitive election, so 
they have used the only tool available, public protests.
    The protest movement was assuredly about ensuring generally 
competitive elections and representative government, but it was 
also fueled by widespread public dissatisfaction over 
inequality of income, wealth, job opportunities, and access to 
affordable housing.
    Fourth, the protest movement has not been perfect in the 
way it has carried out its campaign. It lacked unity and an 
exit strategy, but it appears that at least some of the leaders 
now understand the need to stand down, along the lines that 
Governor Patten was suggesting.
    Fifth, even within the parameters laid down by Beijing, it 
may be possible to engineer a nominating process that has a 
competitive character and senior Hong Kong officials have 
hinted as much.
    Theme number four: the U.S. Government, I think, has 
pursued a skillful threading of the policy needle and it should 
continue to do so. The Administration has been measured, clear, 
balanced, and pointed in its rhetorical statements on the 
current situation. I would refer you, in particular, to the 
White House statement of September 29, which clearly signaled 
American support for a genuinely democratic solution.
    Concerning a Chinese charge that the U.S. Government is the 
``Black Hand'' behind the current protest movement, nothing 
could be further from the truth. I am pleased that President 
Obama authoritatively made clear to President Xi Jinping last 
week that the Hong Kong protest movement was totally homegrown. 
Taking Chinese paranoia into account should not be a reason not 
to act.
    Finally, our diplomats in Hong Kong are skilled 
professionals who understand both the promise and problems of 
the current situation. They understand what all of us should 
appreciate and that is the need to hear a range of Hong Kong 
views and a range does exist. There are sensible people in both 
the establishment and the democratic camp, people who 
understand the need to address all of Hong Kong's governance 
problems through a political system that is representative, 
accountable, and effective and we should take our cues from 
such people.
    Thank you very much.
    Chairman Brown. Thank you very much, Dr. Bush.
    Congressman Smith will begin the questions.
    Representative Smith. Thank you very much, Chairman, for 
that courtesy extended.
    Let me thank all three of you for your extraordinary 
testimonies and for years of service providing insight and 
counsel and commentary that is incisive and actionable. I do 
want to note before I go to a couple of questions that Dr. Yang 
Jianli is here who has testified previously in front of some of 
my committees in the past and Harry Wu as well, two 
unbelievably brave and brilliant men who have paid with their 
lives, with their freedom in terms of time in incarceration in 
the laogai.
    Dr. Yang from 2000 to 2007, a signer of Charter '08 and 
Harry Wu, two decades. I have read Harry's writings. I have 
been to his Laogai Museum which chronicles the abuses of 
Beijing against the dissidents and religious believers and of 
course, democracy activists. Having them present today is a 
reminder of what many in Hong Kong may face.
    I remember having--and I won't mention his name, because it 
might put a further a target on his back--but in the 1990s 
having dinner with a leader in Hong Kong who said he expected 
some day to be in prison. This was after the agreement with the 
UK, of course, and Beijing and he expected to be in prison.
    I think, as you said Ambassador Lagon, that we are at a 
pivotal moment and we should not be coy and muted. I thought 
that was a very fine way of putting it. Business as usual does 
not cut it. I remember after Tiananmen Square when President 
Clinton made a very strong statement and actually issued an 
Executive Order saying that most-favored-nation [MFN] status--
which the Chinese Government relied on--was a goner unless 
there was significant progress in human rights.
    I gave press conferences backing President Clinton, was 
behind him 100 percent only to learn that it was a false 
statement being made by the President and even halfway through 
the review period, made a trip to Beijing--this would've been 
about 1992--met with members of the Chamber of Commerce who 
kept saying we want MFN regardless of what the human rights 
situation was. Of course on May 26, 1994, the President ripped 
up his own Executive Order and that was the end of the linkage 
of human rights and a trading relationship with the People's 
Republic of China.
    Let's not make that mistake again with Hong Kong. The good 
people of Hong Kong understand freedom, as do the people of the 
mainland, of course. They have lived it. The Basic Law protects 
them and I hope that we are not coy and muted, Mr. Ambassador, 
as you pointed out and do let Beijing know that we mean 
business this time.
    Maybe the three of you might comment on whether or not we 
have shown the seriousness, the sense that we mean what we say, 
and we are behind the ``Umbrella Movement.'' I'm glad you 
pointed out a moment ago, Mr. Bush, that none of this came from 
the United States or the international community and as Lord 
Patten said, it is a slur to suggest that the people of Hong 
Kong are not doing this because they believe in democracy and 
human rights and want their Basic Law enshrined in perpetuity 
in that country.
    In your opening comments, Ambassador Lagon, you talked 
about how Hong Kong is a party to the ICCPR, the International 
Covenant for Civil and Political Rights, and that China is only 
a signatory. Part of the subterfuge coming out of Beijing for 
years was that every time somebody was making their way, some 
high leader from China, President, Premier, we always hear 
about they are just ready to sign the international covenant 
and then they signed it but never ratified it. So there was 
always that sense of, oh, there is some kind of transition 
occurring. Of course, it was always a false promise because 
they certainly have not lived up to any of it--that goes for 
the Torture Convention or anything else.
    Touch on that, if you will, if we have been shown--I asked 
Lord Patten about Hu Jintao and Xi Jinping, whether or not 
there has been a change. We know that Xi Jinping has some kind 
of strange fascination, if not respect, for the egregious 
abuses of Mao Zedong.
    Have we seen a further embark on repressiveness on the part 
of Beijing and I have other questions, but I think in the time, 
that will do.
    Ambassador Lagon. I thank you very much for your questions 
and the premises behind it. I would say, generally speaking, 
that the United States will be blamed by Chinese authorities 
for being behind those who are calling for freedom. If that is 
the case, particularly in recent weeks in Hong Kong, then the 
United States should be plain. If it is going to be accused of 
being behind a totally indigenous civil society movement that 
is largely peaceful in its activity, the United States should 
not only make firm, quiet statements behind the scenes, but 
publicly stand with those who would like to see the promises 
made in the past about a move toward more direct democratic 
elections come about.
    I would emphasize asking ``who is destabilizing here? '' It 
is destabilizing if the United States is quiet and doesn't 
stand up for the principles that it believes in and, indeed, 
stand up for those things that the Chinese have promised.
    You asked about the ICCPR, and I think it reveals an 
important distinction between Hong Kong and China; we should be 
careful not to see a hard crackdown on corruption as something 
that is grounded in due process and rule of law. Some admire 
efforts to fight corruption, but it really is targeted against 
particularly un-favored political figures in China.
    It doesn't represent the broader rule of law that the ICCPR 
would envision. We should watch Hong Kong to see whether the 
grounding it has had living up to the basic liberties of the 
ICCPR is actually seeping away.
    Mr. Bush. Thank you for the question. I think that we 
should continue to express public views about the situation in 
Hong Kong and where it is going. President Obama essentially 
promised Xi Jinping that we would be doing that in spite of 
Xi's preference that we not.
    I know Congressman Smith, Senator Brown, that you 
understand the People's Republic of China very well and that if 
the leadership has decided that it is not going to grant 
genuine democracy, it will not do it. The history of the 
negotiations with Britain, I think, revealed a very rigid 
approach by China to keeping things the way they wanted.
    I think one of the reasons they are taking a rigid approach 
now is that they fear the message in China of another 
democratic Chinese system on its periphery. Having one in 
Taiwan is bad enough, having another in Hong Kong just leads to 
people inside China asking the question why not us too. That is 
incendiary.
    I think one of the things that we should be doing going 
forward is to be alert to essentially covert Chinese efforts to 
restrict what freedoms remain: Freedom of the press, the rule 
of law, the activities of civil society, and so on. There are 
ways that restrictions could be imposed and unless we are 
alert, we will not see them.
    I would conclude by saying that if China wants to preserve 
the current power structure and system in Hong Kong, it is 
going to continue to have trouble. The commitment to democracy, 
the sense of political alienation from the status quo is 
extremely strong. Even if this protest movement packs up and 
goes home, is only temporary.
    Thank you.
    Ms.  Hui. I want to make sure that I do not really comment 
on U.S. foreign policy, but I do want to say one thing: 
international attention to Hong Kong is very important.
    People were really shocked that the police would fire tear 
gas and 87 rounds. But people were equally shocked that the 
police suddenly stopped after firing 87 rounds.
    Why? Because, probably, some people realized that the whole 
world was watching. There were all of these international 
reporters, actually, covering the event live. So I think it is 
very important that the world continues to pay attention to 
what is going on in Hong Kong.
    With regard to the question about Xi Jinping's position on 
Hong Kong, I want to just relay what actually Albert Chen said. 
Albert Chen was, actually, on the Basic Law drafting committee 
and he is also considered as one of those who really has a 
close ear to Beijing.
    He said in a program--letter to Hong Kong--that the problem 
for Hong Kong is that in the 1980s the expectation was that 
there should be convergence between the mainland system and the 
Hong Kong system over time. This is why there were all these 
promises. Then why 50 years having no changes?
    But over time, and especially under Xi Jinping, the Chinese 
system, the mainland system has become increasingly 
authoritarian. Therefore, Beijing cannot tolerate for Hong Kong 
to become more democratic. I think this is actually a very good 
insight coming from someone who knows what Beijing thinks.
    Senator Brown. Thank you, Chairman Smith.
    Dr. Hui, let me start with you. You informed us that you 
were in Hong Kong observing the protests. Understanding the 
news reports, understanding always mixed reaction in any 
country in the world when there are protests, mixed reaction 
within the country--could you give us your observations and 
description of how you believe the rest of Hong Kong society 
responded to the protests, those people who weren't on the 
streets, those people who weren't family members--however you 
want to segment your response in terms of what kind of people 
had what kind of responses and reactions to the protests?
    Ms. Hui. As I said earlier, I think really the dividing 
line is whether people believe that we can continue to preserve 
freedom without democracy. I think this really divides people.
    And even for myself, for someone in my generation--the 
problem is that people like me, we grew up in a Hong Kong that 
really enjoyed freedom without democracy. So a lot of these 
people wonder what is the fuss, what are these students doing?
    It is also interesting to see this major generation gap. So 
young people are overwhelmingly supportive of the Occupy 
movement. They really want to have a say in shaping their own 
future. Whereas the older people, and often even their own 
parents, are really anti-occupy. And a lot of----
    Chairman Brown. Break that down. I understand young people 
are more likely--that's probably fairly typical of protests, 
always knowing that. Was it broken down, in part, by class, 
those who are the most successful people materially in Hong 
Kong, are they most likely to oppose them? Is it broken down at 
all by education or broken at all by race? What are your 
thoughts?
    Ms. Hui. It is partially broken down by class because the 
richest and most famous of Hong Kong people, they are almost 
always pro-regime. I think that is true. But at the same time, 
I really think that this is an across-class movement. It is a 
cross-class movement because it actually has been going on for 
30 years. So you have all of these professionals, you have 
actually upper-middle-class people who all want democracy.
    Now some of these people, even when they really want 
democracy, they still disagree with the Occupy movement because 
this is a disruptive action. It is unprecedented in Hong Kong's 
history. So for a lot of these people, while yes, we like 
democracy but we really don't want to cause disruption to Hong 
Kong's businesses. That is one thing.
    But otherwise, it really comes down to the generation gap. 
People who are young, who have a good education are 
overwhelmingly supportive of the movement, however, and in 
whatever forms of resistance people take. Whereas, older people 
can be a bit divided.
    Some of them can really be, ``Okay, so what that we don't 
have democracy or we like democracy, but we should fight for it 
through other means.''
    Chairman Brown. How do you define young, under 35, under 
30?
    Ms. Hui. Probably under 25, yes.
    Chairman Brown. Under 25.
    Ms. Hui. Because even the latest polls show that when there 
are more and more people who don't really want the students to 
stay on the streets, we still see that people under age 25, 
they are still overwhelmingly supportive of the Occupy 
movement.
    Chairman Brown. Is there resentment of older, not 
necessarily wealthy Hong Kong people, but older--well 
specifically this, is there resentment from older, sort of, 
working-class Hong Kong people that these are privileged 
students that ought to get a job and go out and contribute to 
society rather than protesting? Do you see that kind of class 
division?
    Ms. Hui. I don't see that. I actually see the workers 
really behind the movement. Again it is important to see that 
the ``Umbrella Movement'' didn't just start two months ago. 
This is just one episode in a 30-year-long democracy movement.
    So one day when the police tried to take away all of the 
obstacles, the roadblocks, then there were these construction 
workers that showed up with all of this bamboo--in Hong Kong 
when you have construction sites, you have these bamboos. 
Actually, you use bamboo in order to fix all of the buildings 
outside. And they set up new barricades with these bamboo 
sticks.
    So this is really a cross-class movement. And also workers, 
especially for example, a little while ago workers were also 
protesting against unfair treatment and that was actually the 
first time that a movement against Li Ka-shing, the richest 
person in Hong Kong, had really broad support.
    So I would really say that this is a cross-class movement. 
Students are at the forefront, but they are supported by the 
traditional pan-democrats, they are supported by workers, they 
are supported by professionals. Among these people who support 
democracy, there may be some division over tactics, strategies, 
but I think there is broad support for democracy in Hong Kong.
    Chairman Brown. So the bamboo scaffolding was used as 
barriers.
    Ms. Hui. Yes, for a day.
    Chairman Brown. Thank you.
    Ambassador Lagon, you spoke of points of economic leverage 
to pressure China on Hong Kong. Could you be specific, what 
points of economic pressure, how you would use them, how we 
should exercise them, and who should exercise them?
    Ambassador Lagon. Well, I thank you for that question and I 
think it relates both to our relationship with China--
economically, broadly--and with Hong Kong. I think it is an 
excellent provision in your legislation that you have recently 
introduced to have a Presidential certification so that for any 
preferential treatment, which often has commercial, trade, or 
technology transfer, elements, there is a certification about 
whether autonomy is actually veritably in place. That is a form 
of leverage.
    Let me just speak more broadly about leverage with China. 
The common statement is that China is the United States' banker 
and that there is a substantial trade deficit that the United 
States has with China. I am puzzled by the degree to which 
people think that means China has all of the leverage. We 
should have China's attention.
    We should engage them and I know that businesses today do 
not say what they said when I was a House staffer in 1997, that 
somehow bathing China in commercial relations is going to wash 
away the dictatorship like a universal solvent. We should try 
and use that leverage.
    Chairman Brown. That is so interesting because I was in the 
House with Congressman Smith then and I remember the arguments 
from America's largest corporations that we would turn China 
into a democracy by shutting production down in Steubenville 
and Dayton, Ohio, and moving it to Wuhan and Xi'an and then 
selling products back into the United States, a business plan 
followed by so many American businesses large enough to do 
them.
    I also remember and I think Dr. Bush remembers this, that a 
friend of mine said that there were more corporate jets at 
National Airport during the lead up to PNTR [permanent normal 
trade relations] and CEOs that normally would not deal 
individually with House Members were even going to the fifth 
floor of Cannon in those days to talk to House Members and 
lobby on something where they consistently told us they wanted 
access to a million Chinese consumers when they really wanted 
access to hundreds of millions of Chinese workers.
    So we have our leverage points if we care to use them, 
understanding American business interests in China don't 
necessarily want to use them. Comments on that?
    Ambassador Lagon. If I can make an added point, I was on 
the floor of the Senate when the vote happened on PNTR, when 
precious few Senators voted against, but not only has political 
reform not taken place in mainland China, but let's look at 
slippage and Hong Kong, the subject of your hearing today.
    The benchmarks of the Freedom House ``Freedom of the 
Press'' report are very disturbing. There is slippage in press 
freedom--what one most closely associates with civil 
liberties--in Hong Kong because of pressures from Beijing 
directly or from media owners, of self-censorship, and of an 
increase in physical attacks, quite brutal, against journalists 
there.
    But the biggest benchmark is a human one. The first Chief 
Civil Servant under Chinese sovereignty in Hong Kong, Anson 
Chang, has become a very prominent critic of the way things 
have slid in Hong Kong and is very concerned about where things 
have unfolded on the question of elections.
    Chairman Brown. Thank you.
    Dr. Bush, you mentioned fears among the highest echelons of 
the Chinese Government that Hong Kong would look a little bit 
too much like Taiwan in terms of democracy. I remember I met 
with--maybe 10 years ago--a number of the top Chinese leaders. 
There was a congressional delegation of a half-dozen of us.
    The thing that exercised their top leadership the most and 
impassioned them the most was not labor protests and there were 
dozens of those a week throughout a country of, at that point, 
1.1, 1.2 billion. What bothered them the most was the mention 
of Taiwan. So your experience, obviously, rings true to that.
    Tell me how these protests in Hong Kong--what effect 
they've had: one, in Taiwan; and second, what effect they've 
had with cross-strait relations?
    Mr. Bush. Thanks for the question. With respect to the 
impact on Taiwan, it is my impression, having been in Taiwan 
right after I was in Hong Kong, was that after the initial 
media coverage of the Hong Kong situation, public attention in 
Taiwan was diverted to other issues and there were serious 
issues. I would say that for Taiwan people what has happened in 
Hong Kong and what is likely to happen in Hong Kong only 
confirm the long-held belief that the two entities should not 
be treated under the same framework as China is trying to do, 
that China's application of ``one country, two systems'' in 
Hong Kong just proves why it is inappropriate for Taiwan. This 
is a major obstacle to the PRC achieving its political 
objectives with respect to Taiwan.
    I'm not sure there has been a huge impact----
    Chairman Brown. Let me explore that for a second. Sorry to 
interrupt. So if news reports which suggest that President Ma 
is certainly, in contrast to Chen Shui-bian, friendlier to 
China and wanting to establish more cross-border relationships 
and if the next step of that is that Taiwan is moving more 
toward--without overstating this--some kind of Chinese model, 
does this play up on that? Do the issues of democracy in Hong 
Kong push back on that?
    Mr. Bush. Well I think it contributes to a trend that is 
already in play and that is that the Ma administration and 
China have grabbed all of the low-hanging fruit in terms of the 
sorts of cooperation that they can get and Taiwan politics was 
immobilized earlier this year, as you recall, by a similar 
protest movement that took over the legislature because of 
public unhappiness about a trade and services agreement that 
the Ma administration had negotiated.
    Moreover, where China would really like to go on cross-
strait relations is political talks. President Ma has correctly 
been very wary of going down that road because he is very 
committed to the idea of the Republic of China. And that is 
something that Beijing really doesn't want to talk about.
    I would also note that President Ma, who was actually born 
in Hong Kong, came out a few weeks ago with a very strong 
statement in favor of democracy in Hong Kong and the peaceful 
protests that were going on. Beijing was profoundly unhappy 
with his statement and felt that he was sticking his nose where 
it didn't belong, but he, I think, was very pleased that he did 
that.
    Chairman Brown. Was that a surprise to KMT [Kuomintang] 
members that President Ma would do that?
    Mr. Bush. I frankly don't know. President Ma has been 
always very forthright about the need for democracy in China 
and also in Hong Kong. So perhaps they weren't surprised.
    Chairman Brown. One last question about that, did the 
protest in Taiwan, at least in part, serve as a template for 
what happened in Hong Kong?
    Mr. Bush. I know there was a lot of interaction between 
activists in Taiwan and activists in Hong Kong, exchanging 
experiences and techniques and so on. I went to one of the 
protest areas in Hong Kong one evening that I was there and 
there was a gentleman talking to a small crowd and he was 
clearly not a Hong Kong person.
    He was from Taiwan. He was speaking very good Mandarin 
which is the language of instruction there, talking about the 
situation in Taiwan. So there is some interaction. This, of 
course, could play into the PRC narrative that there are a 
bunch of Black Hands, the United States, Taiwan, and so on. But 
the Hong Kong protests are definitely homegrown.
    Chairman Brown. Thank you. Professor Hui, thank you. 
Ambassador Lagon, thank you. Dr. Bush, thank you.
    If you have further comments, please send them to the 
Commission by Monday, if you could. There is some chance that 
some members of the Commission that either couldn't be here or 
Congressman Pittenger or Senator Cardin or Congressman Smith 
will have written questions for you. If you would get those 
answers back to the Commission as quickly as possible. So thank 
you all for your willingness to speak out.
    Mr. Bush. Thank you for the opportunity.
    [Whereupon, at 4:39 p.m., the hearing was concluded.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


               Prepared Statement of Victoria Tin-bor Hui

                           november 20, 2014



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 

                  Prepared Statement of Mark P. Lagon

                           november 20, 2014

   The Umbrella Movement: A Pivotal Moment for Democracy in Hong Kong

                              introduction
    Chairman Brown, Co-chairman Smith, and distinguished members of the 
Commission, it is an honor to appear before you today.
    We have reached a pivotal moment for the future of democracy in 
Hong Kong. As you know, Hong Kong and China are very different.
    Hong Kong is a party to the International Covenant on Civil and 
Political Rights (ICCPR); China is only a signatory. Hong Kong is 
ranked Partly Free in Freedom House's Freedom in the World report for 
2014; China is ranked Not Free. Hong Kong is ranked Partly Free in 
Freedom House's Freedom of the Press report for 2014; China is ranked 
Not Free.
    These differences provide important context for my remarks today, 
which focus on the significance of the protests in Hong Kong for human 
rights in Hong Kong and in China.
    Despite the fact that Hong Kong's Basic Law guarantees one country 
with two systems until 2047, Chinese officials continue to redefine and 
reinterpret the law. Article 45 of the Basic Law states that, ``the 
ultimate aim is the selection of the Chief Executive by universal 
suffrage upon nomination by a broadly representative nominating 
committee in accordance with democratic procedures.'' \1\ In 2007, the 
National People's Congress Standing Committee (NPCSC) ruled that the 
first universal suffrage election for Chief Executive could take place 
in 2017. Yet, in August 2014, the NPCSC reversed course, instead 
deciding that the next Chief Executive must be elected from a pre-
selected pool of candidates.
---------------------------------------------------------------------------
    \1\ The Basic Law, http://www.basiclaw.gov.hk/en/basiclawtext/
chapter--4.html#section--1
---------------------------------------------------------------------------
    Article 27 of the Basic Law guarantees the freedoms of speech, 
press, and publication. Yet, when Hong Kongers took to the streets to 
protest the August NPCSC ruling, police did nothing to protect them 
from thuggish attacks by CCP supporters, instead responding 
aggressively and tear-gassing the crowd. Images of peaceful protesters 
fending off tear gas with only umbrellas to protect themselves 
generated the movement's iconic name: the Umbrella Revolution. The 
aggressive police response was especially troubling, because the 
demonstrators had taken no violent action and because the aggression 
was a clear violation of the right to peaceably assemble--a right long 
protected in Hong Kong. Many were arrested, including a key student 
leader of the movement, Joshua Wong. Wong was detained for more than 
forty hours and was released after his lawyers filed a habeas corpus 
petition--a petition option that does not exist in China.
    Optimists have long hoped that because of Hong Kong's economic 
strength and regional importance, China would follow through with its 
commitment to the ``one country, two systems'' arrangement to which it 
committed until 2047. Many have even hoped that the Xi presidency would 
usher in an era of meaningful democratic reform in China. 
Unfortunately, the events in Hong Kong have provided a clear answer to 
the contrary in both cases.
 what do the events in hong kong signal for human rights in hong kong 
                             specifically?
    1. A continued push by China to assume ultimate control of Hong 
Kong. I believe we will see China continue to reinterpret and redefine 
existing law to exert ever-increasing control and influence over Hong 
Kong, which could negatively impact human rights. We have already seen 
freedoms in Hong Kong slowly declining since the handover in 1997. 
Press freedom is at its lowest point in a decade; Beijing has attempted 
to introduce a propagandistic ``national education'' curriculum in Hong 
Kong schools; and the white paper released by Beijing in June 2014 
affirming the CCP's ``comprehensive jurisdiction'' over the region 
stated that all city administrators--including judges--must ``love 
China.'' \2\ Many believe circumstances will only get worse as 2047 
approaches. The 1200 member nominating committee assigned with vetting 
candidates for the next chief executive election will be based on the 
current election committee, which is comprised of a variety of special 
interests and is disproportionately weighted with pro-CCP members. 
Because they perceive that it is within their interests to do so, the 
majority of Hong Kong's political and economic elite side with the CCP 
on most matters, and would likely be willing to cede additional 
controls to Beijing so long as it does not interfere with their status.
---------------------------------------------------------------------------
    \2\ ``Full text: Chinese State Council white paper on `One Country, 
Two Systems' policy in Hong Kong,'' South China Morning Post, 10 June 
2014, http://www.scmp.com/news/hong-kong/article/1529167/full-text-
practice-one-country-two-systems-policy-hong-kong-special.
---------------------------------------------------------------------------
    2. Strong popular support for democracy and universal human rights 
that is not likely to disappear. Hong Kongers have experienced a 
starkly different history from their mainland neighbors over the last 
hundred years, a history of rule of law rooted in a respect for 
universal rights. It is precisely this tradition of rights-based law 
that has enabled Hong Kong to become an economic powerhouse and 
resulted in a population used to actively engaging in civil society 
discourse. There are civil society organizations addressing a wide 
range of issues, including political rights, health care, the 
environment, women's political participation, LGBTI rights, religion, 
and even arts and culture and sports. Hong Kongers are also experienced 
with protests. Tens of thousands have participated in Umbrella Movement 
protests. Tens of thousands also turn out for the Tiananmen Square 
Massacre protest vigil, which has been held in Hong Kong each year 
since 1989. The 2014 event commemorating the massacre's 25th 
anniversary drew a crowd of nearly two hundred thousand. Hong Kongers 
have also marched to commemorate the anniversary of the handover, to 
support democracy, and to oppose pro-CCP school curriculum changes and 
national security laws. Many of the pro-democracy movement's strongest 
voices are also its youngest voices. They are highly digitally 
literate, and since Hong Kong has the world's third-fastest Internet 
speeds, they are able to communicate instantaneously worldwide. Given 
these factors, support for democracy and human rights in Hong Kong is 
not likely to be silenced any time soon.
    3. A pivotal moment for Hong Kong. As both sides dig in their heels 
and we hear reported plans by the Hong Kong government to remove the 
remaining protesters, democracy in Hong Kong is reaching a pivotal 
moment. It will be very difficult to maintain the ``one country, two 
systems'' arrangement and sustain Hong Kong's economic prosperity 
without addressing the public's demands for democracy. If Hong Kong's 
leaders--influenced by Beijing--ultimately reject democratic demands 
and move toward more mainland-style policies, Hong Kong's special 
status will be put at risk. The way they choose to address the current 
impasse will factor heavily into whether the ``one country, two 
systems'' set-up can work and whether Hong Kong will retain its unique 
place as a financial center in Asia, or whether over time its 
prosperity will decline as it becomes just another Chinese city, racked 
with corruption, censorship, and pollution.
   what do the events in hong kong signal for human rights in china?
    1. Continued repression in mainland China. Following the handover 
in 1997, optimists had hoped that Hong Kong's freedom and prosperity 
would trickle into China. The ongoing events in Hong Kong signal that, 
unfortunately, the opposite is true. China's authoritarianism is 
trickling into Hong Kong. Much of what the CCP does is with an eye to 
its domestic audience. If the current CCP leadership will not tolerate 
previously agreed upon universal suffrage in Hong Kong--a region 
protected by the International Covenant on Civil and Political Rights--
they certainly will not undertake any meaningful democratic reforms on 
the mainland. They are also signaling that mainland Chinese should not 
expect democratic participation either. And, by having state media 
condemn and discredit protesters in Hong Kong, CCP leaders are also 
signaling to mainlanders that there will be consequences for any 
similar protests in China. The CCP has no plans to allow space for 
civil society, respect for universal human rights, or any weakening of 
their control over the Chinese people's voice, and the events in Hong 
Kong will only strengthen their resolve to strictly maintain that 
control.
    2. Escalating anxiety within the CCP, which has resulted in 
increased anti-foreign rhetoric and more stringent censorship on the 
mainland. As recently noted in The New York Times, ``the vilification 
of foreigners as enemies of China has been a staple of propaganda by 
the Communist Party since before its rise to power, [but] analysts say 
the leadership tends to ramp up such rhetoric when it feels under 
pressure at home.'' Uniting citizens behind a common foreign enemy has 
been a popular CCP smokescreen for decades, distracting citizens from 
the corruption, pollution, and lack of free expression that plague the 
mainland. The latest round of anti-American rhetoric has been marked. 
Even as the United States and China are agreeing to reduce greenhouse 
gas emissions and cut tariffs for technology products, Chinese leaders 
are calling on other nations to ``challenge U.S. hegemony on the 
Internet,'' targeting U.S. companies for investigation, and praising 
anti-American Chinese writers. This type of rhetoric can have broad 
implications for future relations, disrupting cooperation, information 
sharing, and even trade relations. The CCP is also working hard to 
block and control traditional and social media coverage of Hong Kong. 
According to Freedom House's forthcoming Freedom on the Net report, 
which will be released on December 4, CCP censorship efforts in China 
during October 2014 were even more intense than in June 2014, which was 
the 25th anniversary of the Tiananmen Square Massacre.
    3. The CCP's anxiety is not unfounded, because hunger for democracy 
still exists within China, despite the odds. Hong Kong's protests have 
been successful because of their scale and the international attention 
they have garnered, generating significant interest in China. Despite 
the CCP's strict control of traditional media and sophisticated 
Internet censorship, mainland Chinese have still been able to unearth 
coverage of the Umbrella Movement. And, despite the fact that sharing 
information about the protests or expressing support for them is 
forbidden and has resulted in dozens of arrests and detentions, 
mainland Chinese are still sharing information and still expressing 
support. Activists in China have used digital technology to evade 
censorship and risked their personal security to discuss the protests. 
Though many in China who speak publicly about the protests have 
expressed strong opposition, there is a curiosity about and appetite 
for narratives that challenge one party rule. Some mainland Chinese 
tourists in Hong Kong at the time of the protests went to watch the 
demonstrations, though China has since suspended approval of tours to 
Hong Kong. The Umbrella Movement had provided mainland prodemocracy 
advocates an opportunity to witness widespread international support 
for democracy efforts in the People's Republic of China.
 what steps can the united states and the international community take 
     to support democracy and human rights in hong kong and china?
    1. The international community--including the United States--should 
publicly support the aspirations of the people of Hong Kong. It is the 
right thing to do both morally and pragmatically. There is always great 
debate about whether foreign expressions of support for democracy 
movements will endanger the movement and its participants--a so-called 
``kiss of death''--and the Hong Kong case is no different. The CCP has 
a long history of blaming ``foreign hostile forces'' for any popular 
movement it does not like, and CCP leaders have taken every opportunity 
to do so during the Hong Kong protests. These bully tactics should not 
prevent the international community from speaking out to support the 
right of all Chinese people to choose their own political future. 
Public support will demonstrate to China that the international 
community is not backing down on human rights, and to prodemocracy 
activists in Hong Kong and China that they are not alone. A newly-
released report by Freedom House on Supporting Democracy Abroad found 
that in U.S. foreign policy toward China ``immediate economic and 
strategic interests almost always override support for democracy and 
human rights.'' It is crucial for U.S. policymakers to understand that 
supporting the people of Hong Kong in their quest for democracy is not 
only morally right but also pragmatic. A free and democratic Hong Kong 
is also an economically prosperous Hong Kong, which makes for better 
business and stronger partnerships. As noted in the U.S.-Hong Kong 
Policy Act of 1992, ``the human rights of the people of Hong Kong are 
of great importance to the United States and are directly relevant to 
United States interests in Hong Kong . . . Human rights also serve as a 
basis for Hong Kong's continued economic prosperity.'' \3\
---------------------------------------------------------------------------
    \3\ PL102-383
---------------------------------------------------------------------------
    2. Multilateral efforts are important. Democratic nations should 
work together to express support for the people of Hong Kong while 
condemning violations of human rights and exhorting China to uphold its 
handover promises of maintaining the one country, two systems model. If 
the United States acts alone without a chorus of other democracies, it 
is subject to the fabricated CCP narrative that the United States is 
picking on China. It is difficult for China to accuse protesters of 
doing the bidding of the Central Intelligence Agency if numerous 
nations are communicating the same message. Specific multilateral 
initiatives could include:

        <bullet>  Efforts at the United Nations to pass a resolution 
        urging the Hong Kong government to genuinely implement the 
        ICCPR--including provisions on freedom expression and assembly 
        and on elections--and uphold its commitment to human rights;
        <bullet>  A visit to Hong Kong by the UN Special Rapporteur on 
        the Rights to Freedom of Peaceful Assembly and of Association, 
        to assess whether the government of Hong Kong is honoring 
        citizens' rights to freely assemble and associate.
        <bullet>  Resolutions in the legislative bodies of democratic 
        nations expressing support for the right of the citizens of 
        Hong Kong to determine their future;
        <bullet>  Efforts to identify points of economic leverage that 
        would allow the international community to increase pressure on 
        Chinese authorities to follow the law and its past pledges, and 
        respect Hong Kong's special status.

    3. Congress can also play a powerful role in supporting democracy 
and human rights in Hong Kong and China. Though multilateral efforts 
are important, this does not mean the U.S. and its legislative branch 
should be soft-spoken. Congress can take several effective actions to 
highlight and bolster human rights in Hong Kong and China, including:

        <bullet>  Urging the Hong Kong government to uphold its 
        commitments to the ICCPR and listen to its citizens' demands 
        for free and democratic elections.
        <bullet>  Renewing the section 301 reporting requirements found 
        in the United States-Hong Kong Policy Act of 1992, which 
        required the State Department to report to Congress on 
        ``conditions of interest to the United States . . . including 
        developments related to the change in the exercise of 
        sovereignty over Hong Kong,'' and ``the development of 
        democratic institutions in Hong Kong.'' The last of these 
        reports was submitted in 2007, and an updated assessment would 
        assist you as legislators seized with Hong Kong's and China's 
        freer futures. The counterpart bills, S. 2922 and H.R. 5696, do 
        just that, and I commend you, Mr. Chairmen, for the bipartisan 
        and bicameral effort to introduce such legislation.
        <bullet>  Maintaining vigorous Radio Free Asia and Voice of 
        America broadcasting in Cantonese is also important, and I 
        again commend you for recognizing this as a priority in the 
        bicameral legislation you have introduced.
        <bullet>  Tying any U.S. differential (i.e., better) treatment 
        of Hong Kong--vis-aa-vis China as a whole--to that region's 
        veritable autonomy. Your legislation's presidential 
        certification to this effect represents a strong policy.
        <bullet>  And, Congress should also send a congressional 
        delegation to Hong Kong to meet with government leaders, 
        observe the protests, and assess any negotiations that occur 
        between protestors and the government authorities.
                               conclusion
    We are at a pivotal moment for democracy in Hong Kong. If there is 
one thing history has show us, it is this: Authoritarian rule has a 
limited life span. No matter how hard the CCP may try to quash dissent, 
outlaw religious belief, control the outcome of so-called elections, 
manipulate economic prosperity, or control the words and thoughts of 
its citizens, it is on the wrong side of history. No regime can outlast 
the inherent appeal of universal values among average citizens, and we 
must all join in supporting the democratic aspirations of the people of 
Hong Kong.
    At the moment of Hong Kong's 1997 handover of sovereignty from the 
United Kingdom to China, when I was a House leadership staffer working 
on the issue, the question could rightly be asked, ``Will Hong Kong 
positively infect the rest of China with its freedoms, or will China 
negatively infect Hong Kong with its lack of them?'' This moment some 
seventeen years later is a crucial juncture in answering that question. 
It matters to the future freedom of China as a whole. The Chinese 
people will be watching. It is no time for the United States and self-
respecting democratic nations to be coy and muted.
    Thank you for the opportunity to testify before you today. I look 
forward to your questions.
                                 ______
                                 

                 Prepared Statement of Richard C. Bush

                           november 20, 2014
    Chairman Brown, Chairman Smith, thank you for giving me the 
privilege to testify today. This is an important issue for U.S. policy 
and for me personally. I lived in Hong Kong as a teenager and followed 
the issue during the dozen years I was on the staff of the House 
Foreign Affairs Committee. In 1992, I played a staff role in the House 
consideration of the U.S.-Hong Policy Act.
    I have four general themes:

Theme Number One: Hong Kong is important to the United States and U.S.-
China relations primarily because it is a test of the proposition that 
ethnic Chinese people are perfectly capable of democratic citizenship. 
Hong Kong can and should be an example of Chinese government that is 
representative, accountable, and effective--the sort of government that 
Americans would like to see emerge in China someday.

    Let me stress four words in that last sentence.

        <bullet>  Example: Chinese leaders and their citizens will be 
        more likely to choose democracy, whatever its flaws, when they 
        see that it works well in Chinese societies like Hong Kong and 
        Taiwan.
        <bullet>   Representative: for Hong Kong's system to be 
        representative, the candidates for major elections must offer 
        voters a choice between all major points of view.
        <bullet>   Accountable: elections give citizens the opportunity 
        to confer legitimacy on leaders when they do well and hold them 
        accountable when they do not.
        <bullet>   Effective: The majority of Hong Kong people no doubt 
        want a democratic system for its own sake, but they also expect 
        that it will address the problems in their everyday lives.

    There are, of course, other American interests at play in Hong 
Kong. About 1,200 American companies have a presence there, along with 
a very active American Chamber of Commerce. Approximately, 60,000 
Americans live there. Many more U.S. residents of Hong Kong origin live 
in the United States, and make a significant contribution to our 
society. Still, I would rate Hong Kong's political future as the most 
important U.S. interest.

Theme Number Two: the U.S.-Hong Kong Policy Act remains a sound 
foundation for American policy.

    Its policy prescriptions remain valid, and its emphasis on the 
preservation of Hong Kong's autonomy in areas that are critical to 
American interests is more important today than it was twenty-two years 
ago. I believed in 1992 and believe now that Section 202, regarding 
suspension of the application of U.S. laws in the event that Hong 
Kong's autonomy is circumscribed, is the most important provision of 
the legislation.
    Regarding the bill you have introduced, Mr. Chairmen, I support the 
resumption of the State Department reports on developments in Hong 
Kong. Actually, I believe that the Administration should resume the 
reports on its own without waiting for legislation, because that would 
be a good and timely signal. Whoever initiates the resumption of the 
report, it is important as there be a serious Congressional commitment 
to hold regular hearings on Hong Kong and U.S. policy.
    I am agnostic on your proposal to require the President to certify 
that Hong Kong is sufficiently autonomous before any new laws, 
agreements and arrangements are applied to it. Implicit in the original 
law's requirement that the President make judgments about the 
applicability of existing laws, agreements, and arrangements is the 
idea that the President make the same sort of judgment about new ones. 
As useful as certification might be, substantive consultations between 
the two branches on this matter would be just as important.

Theme Number Three: what has happened in Hong Kong over the last three 
months was not foreordained. The protest movement was the product of a 
series of choices by the parties involved, particularly the government 
of China. Here I would make the following sub-points.

    First of all, when Beijing enacted the Basic Law for Hong Kong in 
1990, it created a political system that provided extraordinary power 
and influence to some social groups over others. The Hong Kong business 
community was particularly privileged and the middle class was 
disadvantaged.
    Second, as a result, the middle class came to recognize that public 
protest was the only mode of political participation open to it. And in 
some cases, protests actually worked to secure the withdrawal of policy 
initiatives that lacked public support.
    Third, in my view, back in the spring and summer of this year there 
was available a compromise on how to elect Hong Kong's chief executive. 
The approach I have in mind would have ensured that the candidates 
running for chief executive would likely have offered voters a choice 
among the range of public views on government policy. Such an approach 
would likely have received support from at least some in the democratic 
camp and therefore could have secured Legislative Council approval.
    As an aside, I should say that Beijing's choice to allow elections 
on a one-person-one-vote basis is an improvement over the existing 
arrangement of having an unrepresentative, 1,200-person committee to 
pick the chief executive.
    The problem, of course, is China's method for picking the 
candidates, and the fear of many in Hong Kong that Beijing in effect 
would screen candidates. The compromise that I believe was available 
would have liberalized the composition and processes of the nominating 
committee. It would have been consistent with the Basic Law (a Chinese 
requirement) and likely ensured a competitive election. There were Hong 
Kong proposals along these lines, but the decision of the PRC National 
People's Congress Standing Committee on August 31st ignored them. That 
decision was unacceptable to a majority of Hong Kong people because it 
did not guarantee a competitive election in which a range of policy 
approaches was at play.
    Fourth, the protest movement was assuredly about ensuring genuinely 
competitive elections and representative government, but it was also 
fueled by widespread public dissatisfaction over inequality of income, 
wealth, opportunities for good jobs, and access to affordable housing. 
A democratic system is seen as the solution to these problems. But even 
if a truly democratic system is established, if that system fails to 
address these problems, confidence in democracy will wane.
    Fifth, the protest movement has had a number of deficiencies. It is 
divided among different social and generational groups, all competing 
for initiative. It became fixated on one means of ensuring a 
competitive election--civic nomination--and not on the goal itself. It 
has lacked a clear strategy and unity of command, which in turn has 
made it very difficult for it to define success and then engineer a 
negotiated end to the crisis.
    And an end to the crisis is needed. The citizens who initially 
supported the protests and those that did not are increasingly unhappy 
about the disruption that that they must cope with every day. Some 
older leaders of the movement are calling on their younger comrades to 
end the occupation of major thoroughfares. No one should assume that 
the occupation can continue forever or that will Beijing will 
ultimately back down. The opportunity to avoid a coercive or violent 
crackdown--and to avoid new constraints on Hong Kong's civil and 
political liberties--should be seized and seized soon.
    Sixth, there is reason to believe that even within the parameters 
laid down by Beijing on August 31st, it still remains possible to 
engineer a nominating process that has a competitive character. Senior 
Hong Kong officials have hinted as much.

Theme Number Four: the United States Government has pursued a skillful 
threading of the policy needle, and it should continue to do so.

    The Administration has been measured, clear, balanced, and pointed 
in its rhetorical statements on the current situation. I would refer 
you in particular to the White House statement of September 29th. The 
Administration has signaled its support for a genuinely democratic 
solution. It recognizes that if Hong Kong people can, with Beijing's 
concurrence, work out a mutually acceptable solution to the challenge 
of constitutional reform, it will be more enduring because they were 
the ones that achieved it.
    I will say that Washington is constrained somewhat by the reflexive 
tendency of the Chinese government to blame whatever trouble it is 
facing on outsiders, instead of recognizing its own policy failures. In 
the Hong Kong case, Beijing and its propaganda organs have put out the 
canard that the U.S. government is the ``black hand'' behind the 
current protest movement. Nothing could be further from the truth, of 
course, and Beijing has had to grasp at straws to make its case. I am 
pleased that last week in Beijing, President Obama authoritatively made 
clear to President Xi Jinping that the Hong Kong protest movement was 
home grown. Taking Beijing's misperceptions into account is necessary 
because of the actions that it may take based on those misperceptions. 
But having taken that factor into account, the U.S. government should 
not refrain from doing what it believes is needed to protect and 
promote our interests.
    Let me assure you, by the way, that our diplomats in Hong Kong are 
skilled professionals who understand both the promise and the problems 
of the current situation. Among other things, they understand what all 
of us should appreciate: the need to hear a range of Hong Kong views. 
And a range does exist. There are sensible people in both the 
establishment and democratic camp, people who understand the need to 
address all of Hong Kong's governance problems through a political 
system that is representative, accountable, and effective. We should 
take our cues from people in Hong Kong who have an accurate 
appreciation of its problems and good judgment about how to solve them.
                                 ______
                                 

  Prepared Statement of Hon. Sherrod Brown, a U.S. Senator From Ohio; 
         Chairman, Congressional-Executive Commission on China

                           november 20, 2014
    Thank you all for attending this important hearing on the future of 
democracy in Hong Kong.
    There is bipartisan concern in the U.S. over the future of Hong 
Kong, as you can tell by my colleagues who have joined me on the dais 
today.
    For the first time in this organization's history, the two chairs 
of this Commission have led a bipartisan effort to introduce 
legislation, in this case to renew our commitment to freedom and 
democracy in Hong Kong.
    I commend my co-chair, Congressman Chris Smith, for working with me 
on this issue.
    I also thank our Republican and Democratic co-sponsors, some of 
whom have joined us today.
    The legislation, called the Hong Kong Human Rights and Democracy 
Act, is a much-needed amendment to the 1992 Hong Kong Policy Act. It 
reinstitutes reporting requirements that lapsed in 2007 and requires 
the President to certify that Hong Kong remains sufficiently autonomous 
before undertaking any new laws or agreements that treat Hong Kong 
different from China.
    We urge quick passage of this bipartisan bill.
    Why are we in Washington so concerned about Hong Kong?
    China made a promise. China made a promise to the international 
community and to the people of Hong Kong that they could enjoy certain 
freedoms and freely elect their leaders. It is those freedoms and 
autonomy that have ensured Hong Kong's stability and prosperity.
    But now China is backtracking on these promises and threatening the 
future viability of Hong Kong as an international finance center and a 
free city.
    Not only that, Chinese leaders are seeking to distract from the 
issue by claiming that the protests are part of some foreign 
conspiracy, masterminded by the United States.
    Nothing could be further from the truth.
    As we have all witnessed, the students, the workers, and the 
ordinary citizens who have demonstrated at great risk to their 
livelihood represent a genuine desire.
    It is a universal wish for basic freedoms and democracy.
    It is a wish that no amount of money can replace.
    Hong Kong is a test of China's willingness to comply with its 
international commitments.
    If China can so easily renege on its promises to Hong Kong, then 
how can we expect China to hold up its end of the bargain on issues 
like World Trade Organization compliance or future trade agreements?
    As the democracy movement in Hong Kong enters a new phase, we call 
on the Hong Kong government to exercise restraint, engage in genuine 
dialogue with the protesters, and to respect their peaceful calls for 
democracy.
    We call on China to fulfill the commitment it made to allow the 
people of Hong Kong to run and vote in free and fair elections.
    We also send a message to the people of Hong Kong and China, that 
they have an ally in the United States.
    We will continue to monitor the situation closely and to speak out 
whenever the universal freedoms of the people of Hong Kong and China 
are threatened.
    I look forward to the testimony of the esteemed witnesses.
                                 ______
                                 

  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
  From New Jersey; Cochairman, Congressional-Executive Commission on 
                                 China

                           november 20, 2014
    Thank you, Chairman Brown, for calling this hearing. I would like 
to welcome our witnesses and thank them for agreeing to testify today. 
The future of Hong Kong's democracy is truly an international concern 
as the presence of Lord Patten and the other witnesses here today 
confirms. I look forward to your testimony.
    This is the second public event that the Commission has held on the 
issue of Hong Kong. In April, the Commission heard from Martin Lee and 
Anson Chan, two veterans of Hong Kong's political world. There work, as 
well as the work of Hong Kong's new generation of leaders, has inspired 
this Commission and the U.S. Congress.
    As has been mentioned already, Senator Brown and I have introduced 
bills in the House and Senate to update U.S. policy on Hong Kong. I 
have also agreed to start the Congressional Hong Kong Caucus, to 
demonstrate the Congress's concern about Hong Kong's autonomy and its 
importance to U.S. national interests.
    As our witnesses today will attest, under the ``one country, two 
systems'' model, China guaranteed that Hong Kong could retain its 
separate political, legal, and economic systems for at least 50 years. 
Hong Kong's constitution, the Basic Law, protects the rights of the 
people of Hong Kong to free speech, assembly, and the power to choose 
their own government, ultimately through universal suffrage.
    These promises were made to the people of Hong Kong and to the 
international community.
    Instead of keeping these promises, Beijing has decided to stack the 
desk against democracy and the rule of law, demanding that both judges 
and any future Chief Executive must ``love the country and love Hong 
Kong.'' In August of this year, Beijing further ruled the people of 
Hong Kong could not freely choose their next leader.
    Such demands will undermine an independent judiciary and make the 
2017 Chief Executive election look more like an Iranian election than 
one that is free and fair.
    The slow erosion of press freedoms and the rule of law, the 
setbacks to Hong Kong's democratic developments, and Beijing's less 
than subtle oversight of Hong Kong are the reasons the protests 
materialized and why they are ongoing. No matter what is said by 
President Xi or other Chinese officials, the ``Umbrella Movement'' was 
a creation of Beijing's policies and its rough oversight.
    There is no ``black hand'' of foreign forces behind the protests, 
only requests for Beijing to live up to its promises and to ensure Hong 
Kong's unique system of autonomy within China.
    Hong Kong's unique system has ensured prosperity and spurred the 
type of creativity that only comes with the advance of fundamental 
freedoms. The freedoms of speech, assembly, association, and religion, 
and an independent judiciary, are the foundation on which Hong Kong's 
continued prosperity and stability are based.
    This is what the people of Hong Kong want, it is what they have 
conveyed to their leaders, and to Beijing repeatedly for the past 17 
years.
    Hong Kong's continued autonomy and the advance of its democracy is 
a concern of the U.S. Congress and of freedom-loving peoples 
everywhere.
    If given a real choice, people everywhere vote to advance 
representative governments that protect the rule of law and the 
fundamental freedoms of speech, assembly, association, and religion. 
The people of Mainland China do not have such a choice and attempts to 
pursue universally-recognized rights are often met with repression and 
harassment.
    This cannot be Hong Kong's future.
    Hong Kong is the true embodiment of the ``China Dream'' and that 
fact may scare some in the Communist Party. We stand with those who 
want Hong Kong to remain free, vital, prosperous, and democratic--as 
Beijing has long promised.

                                 <all>
</pre></body></html>
